CASE NO. 20-8143
IN THE SUPREME COURT OF THE UNITED STATES
October 2020 Term
_____________________________________________
MERWIN SMITH
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.
______________________________________________
On Petition for a Writ of Certiorari
To the Eighth Circuit Court of Appeals
______________________________________________

PETITIONER’S REPLY TO THE BRIEF OF THE
UNITED STATES IN OPPOSITION

Submitted By:

Melissa Goymerac
Assistant Federal Public Defender
1010 Market, Suite 200
St. Louis, MO. 63101
(314) 241-1255
Counsel for Petitioner

QUESTION PRESENTED
The Third, Fifth, and D.C. Circuits of the Court of Appeals hold that Fed. R. Evid.
404(b) prohibits prosecutors from using prior gun possession convictions at trial to prove a
defendant knowingly or intentionally held a gun police claim he possessed on his person when
the defense claims he possessed no gun. These circuits deem such convictions irrelevant to prove

knowing or intentional possession under l8 U.S.C. 5922(l) of a gun police clairn the accused
held on his person and hold that a plea of not guilty does not make them adrnissible when the
issue jurors must decide is whether the accused had actual possession of a gun.

The Eighth and Eleventh Circuits hold that Rule 404(b) makes prior possession of guns

generally admissible to show knowing or intentional possession in a subsequent charge. The
Eighth Circuit held petitioner's gun possession convictions admissible even though the trial court
declared their prejudicial impact exceeded any probative value under Fed. R. Evid. 403 when

police clairned he pulled a gun out of his pants and the defense denied that he had any weapon.
The question presented is:

1. Are prior

gun possession convictions admissible under Rule 404(b) to prove

knowing or intentional gun possession under S922(gX1) when the government
claims an accused physically possessed a gun the defendant maintains he never had?

2

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW.

2

TABLE OF CONTENTS

J

TABLE OF AUTHORITIES . .

4

STATUTORY PROVISIONS AND RULES OF EVIDENCE. . .

5

PETITIONER'S REPLY TO THE BRIEF OF THE LTNITED STATES IN OPPOSITION. . . .

6

a

The Federal Circuits disagree on the admissibility of prior gun possession convictions
to prove one knowingly and intentionally possessed a gun the government claims
police saw him personally possess when the defense claims he had no gun. No good
purpose is served by perpetuating the disparate impact this poses to the right to trial
in circuits that hold a demand for trial renders prior gun convictions admissible. . . . . . 6

CONCLUSION

l2

J

TABLE OF AUTHORITIES
Supreme Court Cases

Miranda v. Arizona,384 U.S. 436 (1966)

6

Old Chief tt. Unfted States,519 U.S. 172 (1997)

10

Richardson v. Marsh,481 U.S. 200 (1987)

10

Simmons v. South Carolina,512 U.S. 154 (1994).

.

....10

United States v. Huddleston,4S5 U.S. 681 (1988)

.

7

Court of Appeals Cases
United States v. Adams,783 F.3d 1145 (8th Cir. 2015)

9

.....8

United States v. Caldwell,760 F.3d 267 (3d Cir. 2014)
Llnited. States v.

Drew,g F.4tr'll4

(8th

l0

C.ir.202I)

IJnited States v. Jones,484 F.3d 783 (5tr' Cir.2007)
United States v. Linares,367 F.3d94l (D.C. Cir. 2004)
United States v. Moccia,63l F.2d 61

.8
8

.

(l't Cir.1982)

10

united states v. smith,74l F.3d l21l (11tr' cir. 2013).

9

United States v. Thomas,593 F.3d 152

9

(81h

Cir. 2010).

Unpublished Court of Appeals Opinions
United States v. Roberts,4IT Fed. Appx. 812,817 (10tr' Cir.

20ll)

(unpublished)

9

Federal Statutes

l8 u.S.c. $e22(g)
Federal

8

of Evidence

Fed. R. Evid. a0a@)

passirn

4

Other References
U.S. Sentencing Commission, Quick Facts Felon in Possession of a Firearm (FY 2020). . . .7
Jirn Salter, Trffic stops decline in Missouri but Blacl<s more likely to be anested, report
finds A3 (St. Louis Post-Dispatch, June 2,2021)

8

FEDERAL STATUTORY PROVISIONS
18 U.S.C. $ 922(9)

Unlawful acts.

It shall be unlawful for any person-

(l)
for

who has been convicted in any court of, a crime punishable by imprisonment
a term exceeding one year;

. . . to ship or transport in interstate or foreign commerce, or possess in or affecting commerce,
any firearm or ammunition; or to receive any fireann or ammunition which has been shipped or
transported in interstate or foreign comrnerce.

F'EDERAI, R ULES OF EVIDENCE
Fed. R. Evid 404(b) Crimes, Wrongs, or Other Acts (2020)

(1) Prohibited Uses. Evidence of a crime, wrong, or other
a person's character

act is not admissible to prove
in order to show that on a parlicular occasion the person acted in

accordance with that character.

(2) Permitted Uses. This evidence may be admissible for another purpose, such as
proving motive, opportunity, intent, preparation, plan, knowledge, identity, absence
mistake, or lack of accident.

of

(3) Notice in a Criminal Case. In a criminal case, the prosecutor must:

(A) provide reasonable notice of any such evidence that the prosecutor intends to offer
trial, so that the defendant has a fair opportunity to meet it;

at

(B) articulate in the notice the permitted purpose for which the prosecutor intends to offer
the evidence and the reasoning that supports the purpose; and

(C) do so in writing before trial-or in any form during trial if the court, for good cause,
excuses lack of pretrial notice.

5

PETITIONER'S REPLY TO THE
BRIEF OF THE UNITED STATES IN OPPOSITION
The Federal Circuits disagree on the admissibility of prior gun possession convictions to
prove a person knowingly and intentionally possessed a gun the govenxnent claims
police saw him personally possess on his person when the defense clairns he had no gun.
No good purpose is served by perpetuating the disparate impact this poses to the right to
trial in circuits that hold a demand for trial renders prior gun convictions admissible to
prove new gun charges.
The government admits that an entrenched circuit conflict exists on whether one's
exercise of the right to trial to contest a charge of fireann possession per se opens the door to

prior convictions for gun possession to show

a

accused raises no such claim at trial. Br. Opp.

lack of accident or mistake even when the

5-6. The government argues Petitioner's

case is

not the proper vehicle to evaluate the issue because Corporal Walz claimed before trial that

Petitioner said he threw a "remote control" out of his car. Brief in Opposition ("BIO") at 13. It
conspicuously fails to note the critical fact that neither party introduced that allegation at trial
and that Petitioner made no claim of accidental or mistaken possession before the jury.

The Government's reliance on evidence Petitioner's jury never heard exposes other

constitutional problems posed when a demand for trial opens the door to prior convictions for the
same type of offense. Under our system ofjustice, the government bears the burden of proof and

the constitutional right against self-incrimination entitles the defendant to insist the govemment
produce its case before deciding what,

if any, defense evidence to present.

See

Miranda

v.

Arizona, 384 U.S. 436, 460 (1966) ("the goverrunent seeking to punish an individual fmust]
produce the evidence against him by its own independent labors[.]"). Prior to trial the judge
denied Petitioner's request to reserve a ruling on the admission of his prior gun conviction to see
whether any actual "material issue" arose to justify it at trial, citing the prosecutor's clairn that
Petitioner told CorporalWalz he threw a remote control "out of the car." D. Ct. Doc. 96, at 18-

6

19. The govemlnent never introduced Petitioner's statement to Walz,

a tape recording

in which

Petitioner told the officer that he tossed a remote control bock into the car onto the.front

console-not out of

it. Petitioner

never suggested in the statement that he tossed anything out

of

the car or that he mistook anything in his possession as a gun.l Nevertheless, in the Eighth

Circuit, the accused's demand for

a

trial christened his prior conviction relevant to a "material

issue" that neither party raised at trial. The Government's resurrection in this Court of evidence
never entered at Petitioner's trial exemplifies the dangers the rule of adrnissibility based on a
demand for trial poses in the Eighth, Eleventh, and Tenth Circuits. It dernonstrates how far such
expansive admissibility strays from this Court's original ruling that legal relevance of such
evidence must be gauged according to actual material issues arising before the jury.

,See

Huddleston v. United States,485 U.S. 681, 683 (1988) (tying the probity of Rule 404(b) proof to
"the only material issue at trial").
The government labels the circuits' disagreement about the admissibility of prior gun
offenses at issue here a "nan:row" one to claim it unworthy of this Court's time, Br. Opp. 5. The

govefiunent does not address the high nunber of federal prosecutions where the scenario here
arises: federal convictions of persons with a prior felony conviction for possessing guns

numbered 6,782 convictions in fiscal year 2}2}-accounting for over l0% of all Guidelines
sentences reported to the United States Sentencing Commission, Quick Facts Felon in
Possession of a

Firearm,l (FY 202q.2 The Eastern District of Missouri which prosecuted

Petitioner leads the Country in the number of prosecutions for unlawful gun possession (318) in
Fiscal Year 2020, with the Western District of Missouri placing second (219). Such charges

I The government never introduced this statement at trial, likely because the fact the police found a remote on the
console corroborated Petitioner's claim of innocence.
2
Accessible at htttrs://www.ussc.gov/sites/default/files/pdf/research-and-publications/quickfaqs/Eelaq In Possession FY2O.pdf (last visited Sept. 19, 2021).
1

commonly arise in traffic stops, which, in the State of Missouri persistently occur
disproportionately against Black citizens like Petitioner. See Jim Salter,

Missouri but Blacks more likely to be arcested, reportfinds,p.

,A.3

Trffic

stops decline in

(St. Louis Post-Dispatch, June

2,2021) (in2020 Black motorists were 71 percent more likely to be pulled over than White
motorists and25 percent more likely to be arrested). The Government's request that this Court
let the disparities further develop disserves the salient goals of promoting confidence in the

reliability and fairness in the operation of our crirninal justice system.
The government's argument that the legal issue here is too nalrow repudiates its
simultaneous claim that the Court should ignore the dispute because Rule 404(b) cases are too
"f-act-dependent" for this Court to decide. BIO 17. To the contrary, the analytical disagreement
relates to a simple and largely uniform evidentiary stance

in Section 922(g)(l) prosecutions:

police accuse a defendant ofholding a gun on his person that the accused denies ever having.

Conflicting claims of where on one's person one allegedly carried the gun do not alter the
analysis of admissibility or inadmissibility on either side of the circuit

split.

Indeed, the facts

in

the cases outlining the circuit disagreements are remarkably sirnilar. Compare United States v.

Linares,367 F.3d 941,948 (D.C. Cir. 2004) (three eyewitnesses claimed defendant fired
and then threw

a gun

it away and trial court adrnitted prior conviction for illegal gun possession to

prove his intent, knowledge, and absence of mistake); United States v. Jones,484 F.3d 783,785

(5th Cir. 2007) (police claimed Jones pulled a gun frorn his waistband and threw it away and trial
couft admitted prior felon-in-possession conviction to prove intent, knowledge, and absence of
mistake); United States v. Caldwell,l60F.3d267 (3rd Cir. 2014) (two detectives claimed
Caldwell took a gun from his waistband and held it behind another person so the court admitted

prior gun possession convictions to prove knowing, intentional, non-accidental possession);

8

United States v. Roberts,4lT Fed. Appx. 812,817,820 (1Oth Cir.

20Il) (unpublished) (two

officers claimed Roberts pulled a gun from his waistband and threw it away, and court admitted
prior gun possession conviction to prove intentional and knowing possession in the new case).
Furthermore, the same considerations and dangers posed by gun possession cases apply to
prosecutions based on alleged personal possession of controlled substances, See, e.g., United
States v.

Smith,l4l F.3d

l2ll,

1225

(l ltr' Cir. 2013)

(a plea of not

guilty to

a charge

of

a drug

conspiracy makes intent a material issue and opens the door to admission of prior drug-related
offenses as highly probative, and not overly prejudicial); United States v. Thomas,593 F.3d752,
751-5818tr' Cir. 2010) (allowing evidence of 2008 drug conviction where plea of not guilty
placed burden on government to prove every element beyond a reasonable doubt).

Contrary to the Government's claim, the2020 amendrnent to Fed. R. Evid 404(b)(3) does
not resolve the circuit split because it does not change the standards of admissibility. The
Amendment minimally changed the Government's obligation to "generally identify" the
evidence it intended to introduce, to direct the Goverrunent to "also articulate a non-propensity
purpose for which the evidence is offered and the basis for concluding that the evidence is
relevant in light of this purpose." Advisory Committee Notes to 2020 Amendments. Outside the

Third, Fifth and D.C. Circuits, the government will satisfy the amended rule by claiming

a

defendant's choice to go to trial rnakes every element "material." See, e.g., United States v.

Adams,783 F.3d 1145, (8th Cir. 2015) (affirming use of a gun conviction to show Adams knew
what a gun was, despite a district court finding its prejudicial impact outweighed its probity).
The Government's contention that the expansive approach to admitting a defendant's

prior convictions has not led to the use of such evidence to establish a defendant's propensity,

BIO at 20, is hardly

a

uniform view. Concurring in result due to the strength of evidence

9

independent of Rule 404(b), Judge Kelly of the Eighth Circuit questioned the probative basis for

introducing six prior convictions involving fireanns ostensibly to prove a defendant's knowing
possession of a firearm in the instance on trial. See United States v Drew,g F. 4tl'' 714,728-29

(8tr'Cir. 2021) (Kelly, J., concurring) (while one prior gun conviction may be more probative
than prejudicial to prove knowing possession, each of the succeeding five convictions had

progressively less probity and an increasing likelihood to invite conviction based on propensity).
The Government's contention that the Court need not decide the issue because limiting

instructions prevent an inference of propensity, BIO at27, exaggerates their actual effectiveness.
The maxim that jurors presumably follow limiting instructions is rooted more in pragnatism
than certitude that it is true. See Richardson v. Mqrsh,48I U.S. 200,

of

a defendant's past crimes,

2ll

(1987). The admission

particularly when they are similar in nature to the crime for which

the accused currently stands trial carries immense risks that jurors will not be able to follow the

instruction and implicates "the practical and human limitations of the jury systemf.f" Simmons
South Carolina,512 U.S.

l54,l7l

(1994) (plurality opinion). "[T]he risk that

a

v.

jury will convict

for crimes other than those charged--or that, uncertain of guilt, it will convict anyway because

a

bad person deserves punishment--creates a prejudicial effect that outweighs ordinary relevance."

Old Chief v. United States,519 U.S. 172,781 (1997), quoting United States v. Moccia,68l F.2d
61,63

(l't Cir. I9S2).

"Where a prior conviction was for a gun crime or one sirnilar to other

charges in a pending case the risk of unfair prejudice would be especially obvious[.]" Id. at 185.

The real danger that proof of an accused's prior crime might convince at least one juror to

convict to incapacitate a known "bad person" counsels heavily against allowing unwarranted
admission of prior crimes in reliance on curative instructions. Improperly admitted Rule 404(b)

"evidence cannot be rendered admissible sirnply because the district court provides a limiting

10

instruction

."

(Jnited States v.

Hall,858 F.3d 254,279 (4tl' Cir. 2017). In fact, one or more jurors

indulging this improper reasoning may well have been what led the initially deadlocked jury to
ultimately vote for conviction in this one-issue case. The government's claim of overwhelming
proof, BIO at 2l-22, makes no mention of the prolonged deliberation and the jury's notice of an

inability to reach unanimity (ust like the Eighth Circuit's decision).
No legitimate purpose is served by leaving the circuit conflict to generate further
disparity and high potential for prejudice in the circuits that penalize the right to trial in the
common case of unlawful gun possession by opening the gates for admission of prior gun
convictions.

1l

CONCLUSION
WHEREFORE, Petitioner requests that this Court grant his Petition for a Writ of Certiorari.
Respectfully submitted,

Melissa Goymerac
Assistant Federal Public Defender
1010 Market Street, Suite 200
St. Louis, Missouri 63101
Telephone: (3 1 4) 241 -125 5
Fax: (314) 421-3177
E-mail: Melissa Goymerac@fd.org

ATTORNEY FOR PETITIONER

t2

